                                                                            LIATIONAL S C I E N C E FOUNDATION
                                                                                 ARLINGTON,. VA 2 2 2 3 0




                                                  O f f i c e of
                                              Inspector General



                                              MEMORANDUM
                                                     DATE:              - - 30, 3995
                                                                    January
                                                     FROM :                 -            .-@la~                   Agent
                                                                                                                                    I

                                                      VIA:                       Special '~genc-
                                                                                               in-Lnarge
                                                                    lnves\ig :ions Section
                                               SUBJECT: Allegations of
                                                                    - Receipt of Duplicate Funding by


                                                          TO:       Case No. I93080035

                                              On August 13, 1993, we received an allegation of possible duplicate
                                              funding in the Small Business Innovation Research (SBIR) program by .
                               -.
                                                ..
                                                                                       xnc
                                                                                        -.
                                              Program Manager in NSF,s Division of hktttiriais
                                                                                                        _
                                                                                                     Dr ;   ...
                                                                                                    ~es&arch.told OIG 1
                                                                                                                                                                           ..      .                 .                          ':
                                                                                                                                                                                                                                                        .   .


                                                                                                                                                                                                                                                                                                             e"
         .          .
                                              he believed that NSP SBIR award no.;              was-funding the same
                                              research as that funded under the Office --6ff-Naval     Research's (ONR)
                                              SBIR contract no..                  . Prior to.,;iNSF's       selecting ,the  .

                                              proposal for award, ;                 .  .:&nI.NSF,sSBIR office had ,.
                                                                                        . . .   ~   .   ,
   .
   ..        . . . ..                         contacted         ;               the .principal,:.    investigator (PI)
 8 .
.....         .
                   .                          listed in the NSF proposal. Dr.    :   ;.a,sked0 l$s:.j------
                                                                                                .               to explain                                                                  '.,-'.,                                      -.
                                                                                                                                                                                                                                                                                                             I

                                              the differences, if any, between 'thelYal*eady;:funded;ONR research                   ,              ,      ,L-                                            h       ,

    :,             '.                         and the research proposed.to NSF. Ms..,)           3 -responded that,the :.

                                              NSF research would explore other ari~s:.:,,     3ihan the 0,NR-       f urlded
                                                                                            i. $. ,
                                              research, and explained the differences.$:j:.'j           .    ..
                                                                                                                                                       '..             .
                                                                                                                                                                                            ,,
                                                                                                                                                                                                 ,
                                                                                                                                                                                                                 . - ..i;..-.
                                                                                                                                                                                                                    .., .
                                                                                                                                                                                                                                         .,       - '



                                                                                               ,...                                                   .   .
  . .                                                                                                                                                                              ,r        !           ,.
                                                                                                                                                     II
                                 We obtained copies of the ~ N R ' ~ r o ~ o s.c&~,ktict,
                                                                                    al,                    and final report.
                                 as well as the corresponding NSF documents":(the submission of the
                               . NSF final report was pending at this time) .,..,:.4,At.:iour
                                          .                                                                        request, Dr.
                                       reviewed the ONR and NSF proposal.8. y';~&i..,;.f'ound                       significant                                            ..                                                                 '




                                 overlap between the two proposals,.which.;.was      .       .    :not:; .'identified     by the        .        ..          .      ...
                                 company. Based on this,finding, we re~,iew&d:''seven
                                                            .                                                     other sets of                     ..
                                                                                                                                                                                                                                                                                                                         I.



                                                                                                                                                                                                                                                                                                                              .
                                 SBIR proposals and final reports submit:@d l3y.j                                              to.               .                                                                                                                                                        .

                              . various government agenc,&.es,
                                     .                             inclua~ng~-;~SF~,.:~~~;;,W                    .also reviewed                    .. .ir.
                                                                                                                                                 ...,
                                                                                                                                                                                                                                     .                                     ,
                                                                                                                                                                                                                                                                                           :..       ,                .A?,

                                                                                            ;'':;:;'?" . "'.'...
                                                                                                                                                                                                                                                                                                                  ,



   :     ,
                    .,.,     :. proposals submitted .by the..prin,c~pa&~,,,-$
                                                                     .-   . . . h~v$$t;&,~&~~r.'~~n~ed
                                                                                ,
                                                                                       2                          ,.    .
                                                                                                                         ili:,the
                                                                                                                              :;.    :,,.:..:.. :;.c,:a':.:.:;
                                                                                                                                            ,      ,
                                                                                                                                                ...+.,,.,,;
                                                                                                                                                                 :,,                                                                                                  .   ,-           .,                 .       :
  . .
... ."... .                .-;!- original allegation, a~;~:&~Yl..
                                                                as:'.propds&&&
                                                                           - -- . .&,:.  .b$@$&, t..d . PIS emplo&$, by::; :. !;.;;.?Ji{;..;2;$;$.
                                                                                         :...                                                                                ?:.        ...,?            ,A
                                                                                                                                                                                                          ;              .<:.

                           ..    the company. We rew@fed:_ that.~ever$$;;~~~;ithes:e,
                                   .. .                                        :. .             ,. .:,.:                      Mi,:;
                                                                                                                 :~propo&a~,s$:,..    "'.j-.s.,:.,
                                                                                                                                            . i;&:>?s..:  ,,:     :,.>.,,~              ,                    ..:;    <                                          .::            L   .                                              ,'

                                 .finalreports also & rev'i&wed by'.
                                                      ,                 'the;     .-;i'pP~Qpi$$aatef-,~~~            of.ficgals,.... . . ,".g;:?:F.",?.::y;.,;:+                                                                                  .
                                                                                                                                                                                                                                                                               .       ,, ,      '




                                 This further review-found 'thatone other"eet" 9 ~pr-p-als
                                   . (.                                                                  ;            conc&ned.                 .        .:;:,...                                                                                                                  .        .            :            !>!:..
                                                                                                                                                                                                                                                                                                                       ..> ?.

                               ' significant overlap. However, the final reportis,which resulted
                                      ,
                                                                                                                                                        ..                                                                                                                                               ,
                                                                                                                                                                                                                                                                                                         .
                                                                                                                                                                                                                                                                                                                        ..:-I
                                                                                                                                                                                                                                                                                                                         T.::
                                                                                                                                                                                                                                                                                                                      $ , ,


                                 from these awarded proposals showed thatl.:..'s*g~.$f                   icantiy different                               ..,     : ....
                                                                                                                                                          -:,c'.-.
                                                                                                                                                               ,i_.,.                                                                                                                  .             ,z

                                                                                                                                                                                                                                                                                                                        .,
                                                                                                                                                  ..      *.                ..
                                                                                                                                                                            -.     .-                        .       .                                                                      .        ..                 .,>. ;
                                                                                                                                                                                                                                                                                                                      ....:..:
research had in fact been carried out by the company under the two
awards.
Upon receipt of the final report for award no. -_ - . , we com~ared
it with the final report submitted under ONR                    We
found little or no overlap between these two reports, and thus no
evidence to support the allegation of wrongdoing.
This case is closed.
